      Department of Homeland Security



     Costs Claimed by the Port Authority of New York 

         and New Jersey Under Transit Security 

               Grant No. 2009-RA-R1-0105 





            American Recovery and Reinvestment Act of 2009



OIG-13-03                                                    October 2012

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                      OCT 23 2012


MEMORANDUM FOR: 	             Elizabeth Harman
                              Assistant Administrator
                              Grant Programs Directorate
                              Federal Emergency Management Agency

FROM:                         Anne L. Richards
                              Assistant Inspector General for Audits

SUBJECT: 	                    Costs Claimed by the Port Authority of New York and New
                              Jersey Under Transit Security Grant No. 2009-RA-R1-0105

Attached for your information is our final letter report, Costs Claimed by the Port
Authority of New York and New Jersey Under Transit Security Grant No. 2009-RA-R1­
0105. Since the report contains no recommendations to Federal Emergency
Management Agency management, we did not solicit formal comments.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Major contributors to this report are Roger LaRouche, Audit Director; Karl Gallagher,
Audit Manager; and Kevin Donahue, Report Referencer.

Please call me with any questions, or your staff may contact John E. McCoy II, Deputy
Assistant Inspector General for Audits, at 202-254-4100.

Attachment
                                 OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


   Background
   The AmericanfRecoveryfandfReinvestmentfActfoff2009, as amended (Recovery Act),
   appropriated $610 million to the Federal Emergency Management Agency (FEMA). Of
   that amount, the Recovery Act allocated $150 million for Public Transportation Security
   Assistance and Railroad Security Assistance (hereinafter referred to as Transit Security
   Grants) under sections 1406 and 1513 of the Implementing Recommendations of the
   9/11 Commission Act of 2007, as amended.

   On September 29, 2009, FEMA awarded a Transit Security Grant of $48,286,592
   (number 2009-RA-RI-0105) to the Port Authority of New York and New Jersey (Port).
   The purpose of the grant is to fund exterior and interior mitigation measures to
   strengthen the PATH1 rail tunnels connecting cities in northern New Jersey to
   Manhattan. Reimbursement for eligible project costs is based on the grant agreement;
   Office of Management and Budget (OMB) Circular A-87, CostfPrinciplesfforfState,fLocalf
   andfIndianfTribalfGovernments, Revised;fand FEMA guidance.2 As of March 31, 2012,
   the Port had claimed project costs totaling $42,020,112. The costs covered the period
   from September 1, 2009, through March 31, 2012.

   The FEMA grant agreement also requires the Port to comply with Recovery Act
   provisions to submit quarterly recipient reports to the Federal Government; pay
   prevailing wages as determined by the Secretary of Labor; and use American-made iron,
   steel, and manufactured goods.

   The objective of this audit was to determine whether costs claimed by the Port were
   allowable, allocable, and reasonable according to the funding agreement and applicable
   Federal requirements.




   1
     PATH is a wholly owned subsidiary corporation of the Port. PATH provides rail transit service between 

   New Jersey and New York operating 24 hours a day, 7 days a week, on four major service routes: 

   Newark/World Trade Center (WTC), Journal Square/33rd Street, Hoboken/WTC, and Hoboken/33rd 

   Street. 

   2
     FEMA guidance for the Transit Security Grants is contained in the FiscalfYearf2009,fAmericanfRecoveryf

   andfReinvestmentfActfoff2009,fTransitfSecurityfGrantfProgram,fGuidancefandfApplicationfKit,fMay 2009. 


www.oig.dhs.gov                                       2                                              OIG-13-03
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   Results of Audit
   We determined that claimed costs of $42,020,112 for the interior and exterior tunnels
   mitigation were allowable, allocable, and reasonable. The majority of the $42 million
   consists of payments made under competitively awarded construction contracts for
   strengthening the PATH tunnels. We also determined that the Port fulfilled the
   requirements for submitting quarterly reports, paying prevailing wages, and complying
   with the requirement for buying goods manufactured in America. However, the Port did
   not follow OMB guidance in calculating the number of jobs presented in its quarterly
   recipient reports to the Federal Government.

   The quarterly reports submitted for fiscal years 2010, 2011, and 2012 showed the
   creation of jobs ranging from 34 to 134 each quarter. OMB Memorandum M-10-08
   requires grantees to estimate the number of Recovery Act jobs created based on
   (1) work performed by the grantees only in the quarter being reported (not cumulative),
   (2) work performed by subrecipients, and (3) a calculation that divides the total actual
   hours worked in funded jobs by the number of hours representing a full work schedule
   for the kind of job being estimated. 3 This calculation converts part-time and temporary
   jobs into full-time equivalent positions. The Port did not follow the guidance. For the
   quarterly report tested, the Port based its reported jobs created on an estimate of the
   number of construction workers on the job for periods of up to 1 month. The Port also
   included an estimate of the office/administrative labor provided by its contractors. We
   are not recommending any corrective action regarding this matter because OMB
   Memorandum M-10-34 states that “Changes to prior reports [quarterly recipient
   reports] may not be initiated for the ‘Number of Jobs’ field.” 4




   3
     UpdatedfGuidancefonfthefAmericanfRecoveryfandfReinvestmentfActf–fDatafQuality,fNon-Reportingf
   Recipients,fandfReportingfoffJobfEstimates, December 18, 2009.
   4
     UpdatedfGuidancefonfthefAmericanfRecoveryfandfReinvestmentfAct, September 24, 2010.

www.oig.dhs.gov                                     3                                            OIG-13-03
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
   to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The objective of this audit was to determine whether costs claimed by the Port were
   allowable, allocable, and reasonable according to the funding agreement and applicable
   Federal requirements. Our audit covered claimed costs of $42,020,112 for the period
   September 1, 2009, through March 31, 2012.

   Our tests and procedures included—

       •	   Reviewing FEMA project files, the grant and grant modification, the Recovery
            Act, and FEMA and OMB guidelines;

       •	   Interviewing FEMA officials to gain an understanding of the project and project
            management;

       •	   Examining the Port accounting records supporting amounts invoiced;

       •	   Interviewing Port officials to obtain an understanding of project management,
            accounting, procurement, and invoicing;

       •	   Inspecting the project; and

       •	   Reviewing the audit working papers of the certified public accounting firm that
            performed the Single Audits of the Port for the fiscal years ending December 31,
            2010, and December 31, 2011.

   The Single Audits of the Port were performed by Deloitte and Touche LLP and included
   Recovery Act–funded project costs totaling $40,246,084 (or 96 percent of invoiced
   costs). The Single Audit reports classified the Recovery Act Transit Security Grant as a
   major program. The Single Audit reports did not identify any questionable costs or
   compliance issues related to the grant, or any material weaknesses in internal controls
   that would affect the grant.




www.oig.dhs.gov                                 4	                                     OIG-13-03
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   We also tested Port records supporting costs invoiced to determine compliance with
   OMB Circular A-87, Revised, and with other terms and conditions of the agreement. We
   considered Port internal controls over the administration of FEMA funds in determining
   our audit procedures.

   We conducted this performance audit between June and September 2012, pursuant to
   the InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   conclusions based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions based upon our audit
   objectives.

   Our audit was conducted without the benefit of a technical evaluation by FEMA;
   therefore, our conclusions are qualified to the extent that a technical evaluation may
   affect the allowability of invoiced costs.




www.oig.dhs.gov                                5                                       OIG-13-03
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix B
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer
   Departmental Recovery Act Coordinator

   Federal Emergency Management Agency

   Branch Chief, Transportation Infrastructure Security
   Chief, Audit Branch, Grants Program Directorate

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  6                         OIG-13-03
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
